No.____________

IN THE SUPREME COURT OF THE UNITED STATES

ALAN STARR TROWBRIDGE, Petitioner,
v.
JEFFREY WOODS, Warden, Respondent,

On Petition for Writ of Certiorari
To the United States Court of Appeals
For the Sixth Circuit

CERTIFICATE OF SERVICE

I certify that on April 19, 2021, I served the Petitioner’s Motion for Leave to
Proceed In Forma Pauperis, Petition for Writ of Certiorari to the United States
Court of Appeals for the Sixth Circuit, and Certificate of Word Count by mailing one
copy of each pleading by first-class mail, and by email if applicable, to:
Ms. Fadwa Hammoud
Solicitor General
Michigan Department of Attorney General
525 W. Ottawa Street
P.O. Box 30212
Lansing, MI 48909
miag@michigan.gov
Mr. Linus Banghart-Linn
Assistant Attorney General
Michigan Department of Attorney General
525 W. Ottawa Street
P.O. Box 30212
Lansing, MI 48909
banghart-linnl@michigan.gov

Mr. Alan Trowbridge, MDOC No. 540115
Kinross Correctional Facility
4533 W. Industrial Park Drive
Kincheloe, MI 49788

Dated: April 19, 2021

s/Rachel L. Frank
Matthew G. Borgula (P57330)
Rachel L. Frank (P78944)
Counsel of Record
Springstead Bartish Borgula &
Lynch PLLC
60 Monroe Center St. NW, #500
Grand Rapids, MI 49503
(616) 458-5500
matt@sbbllaw.com
rachel@sbbllaw.com

